U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 20, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Daniel Enrique Cantu v. James M. Moody, et al., No. 19-1033
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 14,
2020, and placed on docket, February 19, 2020. The government’s response is now due on March
20, 2020.
We respectfully request, under Rule 30.4 of the Rules of this Court, an extension of time to and
including April 20, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1033
CANTU, DANIEL ENRIQUE
JAMES M. MOODY, ET AL.

JEROLD D. FRIEDMAN
LAW OFFICE OF JEROLD D. FRIEDMAN
19744 BEACH BLVD.
SUITE 390
HUNTINGTON BEACH, CA 92648
213-536-1244
PAUL W. HUGHES
MCDERMOTT WILL & EMERY LLP
500 NORTH CAPITOL STREET NW
WASHINGTON, DC 20001
202-756-8000
PHUGHES@MWE.COM

